0-8380
IN THE
SUPREME COURT OF THE UNITED STATES

DAVID SIMMONS
(Your Name)
vs.
■SHANNON McCLOUD

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
JUN 0 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

STATE SUPREME COURT FOR THE STATE OF ALASKA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DAVID SIMMONS
(Your Name)

WILDWOOD CORRECTIONS COMPLEX
(Address)
10 CHUGACH AVENUE. KENAI,5 ALASKA 99611-7098
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

WHETHER THE DISTRICT COURT ERRED IN FAILING
TO GIVE DEFERENCE TO THE STATE SUPREME,COURT'S
DETERMINATION THAT PETITIONER'S ADMINISTRATIVE
REMEDIES HAD BEEN EXHAUSTED.

WHETHER THE DISTRICT;COURT ERRED IN REFUSING
TO CONSIDER PETITIONER'S CONSTITUTIONAL CLAIM
VIOLATIONS: THAT THE STATE SUPREME COURT'S RE­
TROACTIVE CONSTRUCTION OF THE 2003 AMENDMENT,TO
THE ALASKA DNA I.D. REGISTRATION ACT,AS; APPLIED,.
TO PETITIONER, WHOSE CONVICTION PRE-DATED THE
OPERATION OF THE DIRECTIVES OF THE STATUTE WHICH
CAME INTO 3EING AS AN EXISTING LAW, AND PUNITIVE
-LY SANCTIONED NONE COMPLIANCE, WITHOUT OFFEND­
ING r THE DUE PROCESS CLAUSE OF THE 14TH AMENDMENT
AND THE EX POST FACTO C..CLAUSES OF THE UNITED
STATES CONSTITUTION-ART l,SECT£ON 10.

(i)

LIST OF PARTIES

£ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

DAVID SIMMONS V. HAUSER,

D.C. No. 3 :19-CV-00244JKS
District Court Of Alaska
No. 20-35605 Court Of Appeals
Judgment, Mar.4th, 2021

DAVID SIMMONS V. HAUSER f

D.C. No.3:19-cv-00244JKS
District Of Alaska
No. 20-35605 Court Of Appeals
Judgment, January 15th i 2021

DAVID;.SIMMONS V. HAUSER f

SUPREME COURT No. S-16171
Superior Court No. 3PA-14-02287CI
No. 7299Judgment September, 14th > 2018

(ii)

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

.2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

5
12

CONCLUSION

INDEX TO APPENDICES
APPENDIX A NINTH CIRCUIT GEN. ORD. 611
APPENDIX B

2020 UUNITED STATES DIST. ..LEXIS 64689

APPENDIX C

NO. 7299-SEPT., 14th > 2018 AK.

APPENDIX D
APPENDIX E
APPENDIX F

(iii)

TABLE OF AUTHORITIES CITED
CASES
DUCKWORTH V. SERRANO, 454 U.S. 1, 3(1981) ..........

5

FRALEY V. U.S.BP, 1 F.3d 924,925 (9th Cir. 1993)

5

HARRIS V. REED, 489 U.S. 255,263 n.9 (1989) ....

5

JUSTICE OF BOSTON MUN.COURT V. LYNDON, 466 U.S. 302-03 (1984)5
JONES V. MURRAY, 962 F.302 (4th Cir. 1992') (Cert. , Den.) 506
U.S. 877 (1992) ................................

10

SHEPARD V. HOUSTON, 289 Neb. 399 (Neb. 2008) ........

11

SOWINSKI V. WALKER, 193 P.3d 1134 (AK. 2008) ........

9

UNITED STATES V. HAMMOND, 26 F. CAS (1801) ............

7,8

WACHOVIA BANK, N.A. V. SCHMIT, 546 U.S. 303 (2006)

12

WALKER V. STATE, DEP'T OF CORRECTIONS, 421 P.3d 74.81(AK.2018)6

STATUTES AND RULES
A. S . 11.56. 760(a)(2)

6

A. S. 01.10.090

9;

A. S . 44.41.035(b) ...............

10, n:.

28 U.S.C. Sec. 2254 (e)(i)

5

(iv)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
|X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —
the petition and is
[X] reported at 9th Cir., Gen. Order 6.11
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[^j reported at 2020 U.S. Dist.Lexis 64689; 4/13/2-lorj
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
|X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[X| reported at NO._7299 - Sept . .14 20-' a
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION
[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was January 15tb, 2021
[ ] No petition for rehearing was timely filed in my case.
[xJ A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: Mar, 4th, 2021
, and a copy of the
order denying rehearing appears at Appendix___
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

] For cases from state courts:
The date on which the highest state court decided my case was Sept, 14th. 2018
A copy of that decision appears at Appendix __.Q
P ] A timely petition for rehearing was thereafter denied on the following date:
Do, not have legal filesantj a COpy 0f the order denying rehearing
appears at Appendix_______
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

(2)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

FOURTEENTH AMENDMENT
Sec. [Citizens of the United States] All persons born or naturae
lized in the United States, and. subject to the jurisdiction there
of, are citizens of the United States and of the State wherein
they reside, No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United
States;nor/shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person
witVuin its jurisdiction the equal protection, of the laws.
EX POST FACTO LAWS. Art. 1

Sec. 10 U.S. Constitution

No state shall pass any Bil of Attainder ex post facto Law, or
Law impairing the Obligation of Contracts, or grant any Titile
of Nobility.
Sec. 15, Prohibited State Action. AK Constitution Art. I
No Bill of Attainder or
impairing the Obligation
vocable grant of special
No conviction shall work

ex post facto
of Contracts,
privileges oc
corruption of

Sec. 18. Effective Date. Art. II

Sec. 15

law shall be passed. No law
and no law.making any irre­
immunities shall be passed.
blood or forfeiture of estate.

Sec. 18 Ak Constitution.

Laws passed by the legislature becomes effective ninety days after
enactment. The legislature may, by concurrence of two-thirds of
the membership of each house, provide for another effective date.
28 U.S.C. Sec. 2254(e)(i)
In a proceeding instituted by an applicant for a Writ Of Habease
Corpus by a person in custody pursuant to the judgment of a state
court, a determination of a factual issue made by a state court
shall be presumed to be correct, the applicant shall have the bur
-den of rebutting the presumption of correctioness by clear and
/commencing evidence.

(3)

STATEMENT OF THE CASE
1) On or about Sept. 30th, 1990, petitioner was arrested on
multiple felony counts.
2) On or about Sept. 20, 1995, petitioner was reconvicted.
3) On 1/1/96 Alaska DNA I.D. REGISTRATION ACT became operational.
4) On 1/14/14, petitioner was convicted in Disciplinary proceeding
of disobeying a direct order of the court to provide a DNA test
sample as a condition of parole.
5) On 2/8/14 petitioner was release on mandatory supervised parole
, and arrested.
6) On 4/4/16 the State dismissed the fraudulent Indictment without
prejudice.
7) On Dec. 14th

2016, the Parole Board revoked petitioner's parole

8) On 9/14/18 th state Supreme Court determined that petitioner was
exempted (Not Required) under the 1995 DNA LAW, to provide his
DNA; petitioner had exhausted his disciplinary appeal; and, that
the 2003 Amendment was retroactive, and applied to petitioner.
9) Discretionary review was denied.
10) In 2019, petitioner sought review in the District Court for the
District Of Alaska of the State Supreme Court's decisions.
11) On 2/9.19 the Statute Of Limitations expired on the fraudulent
criminal Indictment.
12) On 4/13/20 Judge Singleton, dismissed the petition for a Writ
Of Habeas Corpus on procedural grounds, with prejudice.
13) petitioner sought reconsideration; requested a Certificate Of
Appealability; appealed to the 9th Circuit; and requested an
En Banc Hearing.
14) On 12/20/20 petitioner was transferred to WildWood Corrections
Complex., and the Goose creek Corrections Center has refused
all request to forward all personal and Legal Files and Docu­
ments .
15)

On or about 5/27-28/21 petitioner requested and awaits the
Clerk Of The Federal District Court, to forward that Court's
Opinion issued on 4/13/20.

(JO

REASONS FOR GRANTING THE PETITION

A Judge is required to respect the will of Congress pur­
suant to 28 U.S.C. Sec. 2254(e)(1) and give deference to the fact
-ual findings of a State Highest Court.
the Exhaustion requirement is satisfied when the highest court
in the state in which the petitioner was convicted has been

given

a full and fair opportunity to rule on petitioner'^ claim. JUSTICE
OF BOSTON MUM.COURT V. LYNDON, 466 U.S.1^3 (1981)(perCcuriam);
DUCKWORTH

V. SERRANO, 454 U.S. 1,3 (1981)..................................

The Ninth Circuit and This Court have accepted the futili­
ty exception-FRALEY V. U.S. BP, 1 F3d 924, at 925(9th Cir.1993);
HARRIS V. REED, 487 U.S. 255,at 263 n.9(1989)-where the decision
of the highest court is adverse and it is unlikely the court would
reverse itself on the same legal issue

a.failure to exhaust is not

a bar to Habeas review of a Constitutional claim.
The legal issues before both the Disciplinary Board and the
Parole Board are the same. And, petitioner was denied Certiorari.

(5)

Parole Officer Thompson defaulted in his ministerial
duty to

notice the parole board within five working days to in

-stitute its anticipatory revocation process- in preference to
the disciplinary chair-person's attendance in consideration of
Art. Ill issues

for which he had no Institutional competence to

determine.
Neither the chair-person nor the superintendent have the in­
stitutional competence to adjudicate constitutional claims- WALKER
V. STATE,

421 P.3d 74,81(AK 2018).

Petititioner's immediate arrest on his mandatory parole super
-vised release date was a red hearring. To intimidate and to coer
-ce acceptance of an imposed un(constitional) modidfication of his
sentence, by

threat of a new criminal charge and sanctions of up

to five (5) years, under A.S. 11.56.760(a)(2).

The dismissal of the fraudulent Indictment on 4/4/16 with
/

-out prejudice, was the functional equivalence of a dismissal with
prejudice because the state could never reinstate the Indictment.
Such an equivalency operates on the merits and constitutes
an acquittal-An absolute bar to a new prosecution.
Moreover, the statute of limitations expired in 2019.

(6)

EXCLUDED FOR WANT OF JURISDICTION

The Supreme Court ruled in This Case, that petitioner
was not required to provide a DNA profile test sample under the
1995 DNA I.D. Registration Act because petitioner's conviction
occurred on Sept. 20th, 1995, before operation of the directives
of the statute which came into being as an existing law. i.e •

i

on Jan. 1, 1996.

The Operation of the law, can be no more than the obli­
gation of the law, or that quality by which the law becomes bin­
ding on a subject as a rule of his conduct.

The

Operation of the law is a part of its very essence.

UNITED STATES V. HAMMOND, 26 F.Case 96(1801). Therefore, if there
is no operation, there is no obligation. By Operation of law pe­
titioner owed no duty of performance; He is excluded from the
class of Individuals convicted of qualifying offences on or after
1/2/96, for want of jurisdiction.
(7)

"Not Required"

means not under an obligation to do as

the law require. "To exempt," means to free from an obligation
or liability to which others are subject; release f^oin or not sub
-ject to an obligation or liability, and "immunity," means free­
dom or exempt frum a charge, duty, obligation, office, tax, impo­
sition, penalty, service esp. as granted by law to a person or
class of persons. Webster's Third International Dictionary (1993)
; Black's Law Dictionary (10th ed. 2014); Garner's Dictionary Of
Language use 4327 (3d ed.2011)- these terms and their meanings
lead to the following proposition: "If the Legislature pass a law
(an act) whose operation may. take effect on a future date, until
that date arrives, it is not (does not become) a law, it is only
an act which at a future day is to be come a law. If in the mean
time, before its operation commence, a person does an act which
would be contrary to the act of Congress if committed after the
time limited for its commencement, still that person committe no
crime

no offense, and has done nothing against the law'.' UNITED

STATES V. HAMMOND, 26 F. Cas 96(1801).

Similarly, jeventhough petitioner had been convicted be­
fore 1/1/96, the law was not operational

and petitione's pre-en­

actment convictions did not trigger an obligation to perform a
duty by operation of law.
(8)

JUDICIAL CONSTRUCTION

Laws passed by Legislatures generally do not affect pre­
enactment conduct. Alaska Constitution, Art.2, Sec. 18;S0.WINSKI V
WALKER, 198 P.3d 1134(AK 2008); A.S. 01.10.090:"No Statute Is Re­
troactive Unless Expressly Declared Therein."

A Statute is retroactive as applied if the event that
triggered its application occurred before the statute came in to
effect.
Thus

a retroactive application of a Civil Statute ordi­

narily transgress constitutional limitations on Legislative Power
if the statute impairs vested rights
impose new penalties.

(9)

creates new obligation or

The State Supreme Court held that the 2003 Amendment to
A.S. 44.41.035(b) is applicable to petitioner without offending
substantive' ^ due process under the Fourteenth Amendment nor the
Ex Post Facto clauses under the State and U.S. Constitutions. Art
1 Sec. 10; Art.l Sec. 15 AK. Const.

The 2003 Amendment States in part:
"The uncodified law of the State Of Alaska
is amended by adding a new section to read as
follows:
Applicability. This Act applies to all con
-victions and adjudications of delinquency in­
cluded under A.S. 44.41.035_Cb) as amended by Sec.
5 of this act that occurred before the effective
date of this act if the person is still incarcera
-ted.......................... "

The Construction of this language and the State Supreme
Court's interpretation is in conflict with JONES V. MURRARY, 962
F.2d 302 (4th Cir. 1992)(CertDen.) 506 U.S. 877 (1992) in JONES
, The 4th Circuit struck down the language contained in 52.1-159
"Any person

convicted of a felony who is in custody after July

first, 1990, shall provide a blood sample prior to his release

(10)

(emphasis added-sic-), authorizes a

modification of ^mandatory

parole. We hold that these five words therefore are unconstitu­
tional and may not be enforced to modify the mandatory perior."

In SHEPARD V. HOUSTON, 289 Neb. 399 (Supreme Court,2014)
a case nearly on all four corners. There the State Legislature
Amended its DNA LAW to impose a new duty or obligation on SHEPARD
,where the amendment is similar in language as the language in the
2003 Amendment to Alaska DNA LAW. A.S. 44.41.035(b), i.e. "If the
person is still incarcerated"If the individual refused
forfeited. These cases like

his good time credits were

others dealing with a Civil Regula­

tory Scheme offends the Ex Post Facto and Due Process Fair Notice
and Reasonable Reliance Clauses of the Fourteenth AmendmentIt is the New Obligation

after the fact, with punitive

sanctions for non-compliance- In all these cases, it is the puni­
shment that the ex post facto clause prohibits;
And

after the fact conditions with notice and the right

to defend against, that the due process clause-A substantive
change occurs where the new obligation imposes a modification
of the sentence.

(U)

The 2003 Amendment added an enumerated list of felonies
under Titles 11 & 28.35 of the Alaska Statutes; And,
makes clear that an individual who has been convicted after
January First, 1996, and is still incarcerated before the effec­
tive date of July First, 2003, He
a DNA profile test sample

or She, is required to provide

as a condition of parole.

Amendments are generally construed together with the
original Act to which it relates so as to constitute one law.
Under the In Pari Material Cannon.of Statutory Construction
, Statutes addressing the same subject matter generally should be
read "as if they were one law". WACHOVIA BANK N.A. V.SCHMIT,456
U.S. 303 (2006).

CONCLUSION

The Petition For A Writ Of Certiorari Should Be Granted.
Respectfully Submitted

Dated:

2021
—

David Simmons, Pro Se, #31806
(12)

Jintu, AK. 99811.2000
L

axt

INMATE COPY

^^“Siaassaff.PrisonerNama^
Offender Number.

'0C
&b

Uuotym ftr»»riiiin»d«teiopon« ft, «*

request

/mmk,
V.

THE STATE

h ALASKA
Governor Mike Dunleavy

Department
of Corrections
Division of Institutions
Wildwood Correctional Complex
10 Chugach Ave
Kenai, Alaska 99611
Main: 907.260.7200
Fax: 907.260.7208

MEMORANDUM
FROM:

Casey DeSiena ^j[)
Administrative Officer
Wildwood Correctional Complex

SUBJECT: Inmate request for statements change
FOR: Simmonds, David #31806

As of June 1,2008 this office will no longer provide a calculated cover letter for statements. The court
is now calculating these figures for you.

If you are a prisoner who is commencing a civil action, an appeal from a civil action, or an appeal from the
final decision of an administrative agency, against the state or a present or former state officer, agent or
employee, and you are requesting a filing fee exemption, you should submit this memorandum and
enclosure to the court.

If you indicated that you would like an additional copy of your statements or requested statements older
than six months these copies are available for $0.15 each. You may request copies of these originals from
your Institution through an OTA form.

State of Alaska Department of Corrections
STATEMENT OF ACCOUNT

si

§

2-'

WILDWOOD CC
Statement Date: 11/01/2021 To: 05/31/2021

ACCOUNT TRANSACTION DETAIL:
Location WILDWOOD CC

Offender No:

31806

Offender Name:

SIMMONS, DAVID NMN

Account:

CHECKING

Account

-49.74

Trans ID

Trans Date

Account:

SAVING

Account

0.00

Trans ID

Trans Date

Cell: 232 B

Debit

Transaction Description / Ref Doc

Credit

Account Balance

Begining Balance

-49.74

—No Transactions—

-49.74

Ending Balance

-49,74

Debit

Transaction Description / Ref Doc

Credit

Account Balance

Begining Balance

0.00

—No Transactions—

0.00

Ending Balance

0.00

I certify this tape a true copy
//of the origfnal document

A

s'lG^TURE/

Date: 06/07/2021 12:23
ACOMS/OTA/Inmate Bank Requirement

Created By: jawise

DATE

Page

1

of

1

